HHS/OIG, Audit -"Review of Medicare Payments for Beneficiaries With Institutional
Status,"(A-07-03-00151)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Beneficiaries with Institutional Status," (A-07-03-00151)
June 26, 2003
Complete
Text of Report is available in PDF format (1.15 mb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit
was to determine if capitation payments to IHA (Contract H3362) were appropriate
for beneficiaries reported as institutionalized during the audit period.  We
determined that IHA received Medicare overpayments totaling approximately $18,400
for 36 beneficiaries incorrectly classified as institutionalized.  The overpayments
occurred because of lack of oversight of internal control procedures.  We
recommended that IHA refund the overpayments, and ensure policies and procedures
regarding the verification of institutionalized beneficiaries are followed correctly.  The
IHA concurred with our findings and recommendations.